<html>
<title> - H.R. 5272, PEACE THROUGH NEGOTIATIONS ACT OF 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




           H.R. 5272, PEACE THROUGH NEGOTIATIONS ACT OF 2000

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000

                               __________

                           Serial No. 106-191

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
69-975                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                Laura L. Rush, Professional Staff Member
                   Shennel A. Nagia, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 5272, ``Peace Through Negotiations Act of 2000.'' 
  A bill to provide for a United States response in the event of 
  a unilateral declaration of a Palestinian state................     1

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York, and Chairman, Committee on 
  International Relations........................................    15

Bills and Amendments:

Text of H.R. 5272................................................    16
Amendment to H.R. 5272 offered by Mr. Gejdenson, a Representative 
  in Congress from the State of Connecticut, Mr. Berman, a 
  Representative in Congress from the State of California, and 
  Mr. Ackerman, a Representative in Congress from the State of 
  New York.......................................................    23

 
           H.R. 5272, PEACE THROUGH NEGOTIATIONS ACT OF 2000

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:22 p.m. in Room 
2167, Rayburn House Office Building, Hon. Benjamin A. Gilman 
presiding.
    Chairman Gilman. The Committee on International Relations 
now convenes a business meeting in open session to consider 
H.R. 5272, the Peace Through Negotiations Act. The chair lays 
the bill before the committee. The clerk will report the title 
of the bill.
    Ms. Bloomer. H.R. 5272, a bill to provide for the United 
States response in the event of a unilateral declaration of a 
Palestinian state.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1, Short Title. This Act may be----
    Chairman Gilman. Without objection, the bill is considered 
as having been read. It is open for amendment at any time. I 
will now recognize myself to introduce a bill.
    Because I, and along with many of my colleagues, remain 
very much concerned about the possibility that Mr. Arafat and 
the PLO will declare a Palestinian state unilaterally, the 
committee is today marking up legislation that would underscore 
the need for a negotiated settlement between Israel and the 
Palestinians. Our Peace through Negotiations Act of 2000, which 
I introduced on behalf of myself, Mr. Lazio, Mr. Nadler, Ms. 
Lowey, Mr. Reynolds, and Mr. Bereuter, recognizes that 
resolving the political status of the territory controlled by 
the Palestinian Authority is one of the central issues of the 
Arab-Israeli conflict.
    The Palestinian threat to declare an independent state 
unilaterally constitutes a fundamental violation of the 
underlying principles of the Oslo Accords and the Middle East 
peace process. That threat continues unabated. Mr. Arafat has 
not rescinded his announced intention of making such a 
declaration.
    The measure before us would establish that it is the policy 
of the United States to oppose any unilateral declaration of a 
Palestinian state, and that diplomatic recognition should be 
withheld if such a state is unilaterally declared. And in that 
event this legislation would prohibit all U.S. assistance to 
the Palestinians except for humanitarian aid, and would 
downgrade the PLO office in Washington.
    Additionally, this measure would encourage other countries 
and international organizations to join with the United States 
in withholding diplomatic recognition of such an independent 
state and would authorize the President of the United States to 
withhold payment of U.S. contributions to international 
organizations that recognize any unilaterally declared 
Palestinian state.
    Over 18 months ago, Congress spoke with one voice about the 
prospects of a unilateral declaration of statehood by the 
Palestinians. Nonbinding legislation adopted by both houses 
stated, and I quote, ``any attempt to establish Palestinian 
statehood outside the negotiating process will invoke the 
strongest congressional opposition.''
    This Peace through Negotiations Act is a measured and 
binding response to that possibility. Accordingly, I am urging 
our colleagues to strongly support this measure, which we 
expect to take up on the suspension calendar later today or 
tomorrow.
    Mr. Gejdenson.
    [The prepared statement of Chairman Gilman is available in 
the appendix.]
    Mr. Gejdenson. Mr. Chairman, first, I would request and 
urge the chairman not to move this today. We are going to mark 
it up today, but I would hope that you would hold this for the 
suspension calendar for next week. We have the first serious 
high level meeting between the head of the Israeli government, 
Mr. Barak, and Mr. Arafat at Mr. Barak's residence.
    We have worked on this an awfully long time, and I would 
hope that the suspension calendar could be held for one more 
week to give us time to make sure that we in no way 
unintentionally harm the process. But I would say that I have 
an amendment at the desk where I think there is general 
agreement among most of the members that I have spoken to which 
would simply--I will wait, and at the appropriate time if you 
recognize me, offer the amendment. I would just say that I 
would hope that we would not move this on the suspension 
calendar today, and at the appropriate time I have an 
amendment.
    Chairman Gilman. May I suggest that the gentleman offer his 
amendment at this point, and----
    Mr. Gejdenson. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Gilman. The clerk will read the amendment.
    Ms. Bloomer. Amendment offered by Mr. Gejdenson: Page 3, 
strike line seven and all the follows through line 14 and 
insert the following----
    Chairman Gilman. Without objection, the amendment is 
considered as having been read. Mr. Gejdenson is recognized.
    Mr. Gejdenson. Mr. Chairman, I am offering this amendment 
on behalf of Mr. Berman and Mr. Ackerman and myself. The 
amendment simply gives the President the ability, if he finds 
it in the national interest, the security interest of the 
United States, to waive some of these provisions, and to waive 
provisions if an agreement between the Palestinians and the 
Israelis is concluded.
    Chairman Gilman. Is there any comment on the gentleman's 
amendment?
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I have concerns about the 
gentleman's amendment. I understand he has substantial support 
for it, but it does go directly opposite the way the 
legislation is written to make it clear that the President has 
very little flexibility in issuing the waiver. I think this 
dramatically undercuts the impact of the legislation.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Bereuter. I would be----
    Mr. Gejdenson. I think the gentleman may have seen earlier 
versions. This does not waive the cut of funds directly to the 
Palestinian Authority. It simply gives the President the 
ability to waive some of the people-to-people funds on the West 
Bank and Gaza, some of the democracy-building things. Even if 
we have a situation where the Palestinian Authority has taken 
an action we object to, it seems to me it is our national 
interest, it is in the regional national interest, if the 
President deems it so, to continue to try to build democratic 
institutions and some of those other issues.
    Mr. Bereuter. Reclaiming my time, I may, in fact, have 
thought it is broader than the gentleman's new amendment has 
indicated.
    My understanding of the original legislation is that there 
were relatively few exceptions on what could continue to flow. 
One was humanitarian assistance. There was one more that was 
something of that nature; I have forgotten. But you are saying 
for counterterrorism.
    Mr. Gejdenson. Yes. The other thing we would make sure is, 
for instance, that the counterterrorism effort continues.
    Chairman Gilman. Go ahead, Mr. Bereuter.
    Mr. Gejdenson. The amendment makes that happen. In the 
legislation--part of the art of the language we use in drafting 
legislation here is that many things that we would generally 
support and assume in the original language would be permitted 
are not permitted, and so what we try to do is clarify that, 
including the question of whether we continue cooperating with 
them on counterterrorism efforts without the amendment.
    Mr. Bereuter. I just hope we are not eviscerating the 
legislation process here. Thank you.
    Mr. Berman. Parliamentary inquiry, Mr. Chairman. Is the 
amendment before us now?
    Chairman Gilman. Yes. The amendment is before us, but point 
of inquiry, Mr. Gejdenson, would you elaborate on what is in 
your amendment? Would you specify what the waiver would 
encompass?
    Mr. Gejdenson. It gives the President the authority to 
waive several sections which are enumerated in the bill, three, 
four, and five of Section 4(a) in the bill, if the President 
deems it in the national security interests of the country.
    Chairman Gilman. Well, what does that include, Mr. 
Gejdenson?
    Mr. Gejdenson. It allows people-to-people assistance on the 
West Bank and Gaza and international organization and obviously 
funding.
    Chairman Gilman. And does it waive any other provision?
    Mr. Gejdenson. No.
    Chairman Gilman. A point of inquiry was raised by----
    Mr. Berman. [continuing]. Mr. Berman.
    Chairman Gilman. [continuing]. Mr. Berman.
    Mr. Berman. There are a number of important policy 
statements in this. I think this is a very important bill. I 
think it is very important to move the bill and to try to get 
it to the President's desk before we leave here this year.
    The bill does a number of things. It makes some policy 
statements, and then it has six, as I understand it, six 
specific obligations or prohibitions in some cases. The waiver 
amendment does not apply to number one, which is downgrading 
the status of the Palestinian office in the United States. If 
the whole premise of the upgrading of the status was because of 
Oslo and the willingness to settle conflicts through 
negotiating processes, the unilateral declaration of 
independence is directly contrary to that and directly 
undermines those principles that were agreed to at Oslo, and I 
do not think that should be waived under any circumstance. This 
amendment does not waive that.
    Number two is the prohibition of U.S. assistance to the 
government of a unilaterally declared Palestinian state. This 
amendment does not waive that.
    Chairman Gilman. You are saying the amendment does not 
waive----
    Mr. Berman. The amendment does not waive that prohibition, 
so neither the downgrading nor the prohibition on aid directly 
to the government.
    On assistance to the West Bank and Gaza, a variety of kinds 
of programs not done through a government of a unilaterally 
declared state, but through NGOs and other kinds, as the 
ranking member mentioned, people-to-people programs, 
infrastructure kinds of issues, health care kinds of issues--
things that would not generally be thought of as humanitarian 
assistance but were still important to the quality of lives of 
people, a limited waiver would be allowed in that situation.
    The fourth one is irrelevant, whether there is a waiver or 
not because it simply authorizes the United States to withhold 
contributions to international organizations that recognize a 
unilaterally declared Palestinian state. Since it is not a 
mandate, whether you waive it or not is not relevant.
    Chairman Gilman. Does this waive that provision?
    Mr. Berman. It waives a discretionary authorization. It is 
not worth the time we have already spent discussing it because 
since the administration does not have to do that one under 
your bill, waiving the provision that they do not have to do 
anyway. So that one is just really of no legal or optical or 
any other kind of significance.
    Number five deals with a limited waiver for the U.S. voting 
against different kinds of international assistance. I can 
envision a situation where some international financial 
institution wants to give money, the World Bank, to deal with 
the sewage systems in the refugee camps. And I am prepared, as 
much as I want this bill to move and to pass, to allow a 
limited waiver for that kind of a program. This amendment does 
that.
    And then the sixth, which is very----
    Chairman Gilman. You are saying the amendment would waive 
this provision.
    Mr. Berman. It would not waive it. It would allow----
    Chairman Gilman. Would not waive it?
    Mr. Berman. It would allow the President, in limited 
circumstances, to waive it.
    Chairman Gilman. Giving the President discretion, then, to 
waive it. Is that what you are saying?
    Mr. Berman. Under the standards of the amendment, that is 
right, where he makes certain declarations, reports, and 
certifications.
    Mr. Rothman. Will the gentleman yield?
    Mr. Berman. Sure.
    Mr. Rothman. I have a question for the gentleman with 
regard to number 5(b). This would allow a waiver of the 
extension by one of the international lending organizations of 
financial assistance, a waiver of an extension of a loan to ``a 
unilaterally declared Palestinian state.'' So that would seem 
to me not to be so limited. It could be for any purpose. It 
would not have to be to help sick children or to put in sewage 
systems. It could be for any purpose that the Palestinian 
Authority, or at that point the Palestinian state, applied to 
this international body for a loan, which body receives a 
significant amount of its financial resources from the United 
States taxpayers.
    Mr. Gejdenson. Well put, but the absence of a waiver 
prohibits the extension of any kind of a loan or other 
financial or technical assistance without regard to the merits 
of the specific thing.
    Mr. Rothman. Will the gentleman yield for one more 
question?
    Mr. Gejdenson. Yes.
    Mr. Rothman. Obviously, the gentleman wants to make, I 
think, the same point that I do when we supported the 
underlying bill, which is to make a clear and unambiguous 
statement to either Israel or the Palestinian Authority that 
unilateral actions of the nature that this bill discusses, of 
the magnitude of declaring a state, would have the most severe 
consequences, unambiguous, and rather hurtful. And this number 
five, in particular, might eliminate some of the sting of the 
underlying bill, and it disturbs me greatly.
    Mr. Berman. If I could just reclaim my time to add one 
element to that. Most of all, I want a law. I want a law that 
says you do this--we did not get to number six yet, for which 
there is no waiver which prohibits any money spent on 
recognizing a unilaterally declared, independent state. I want 
a law that does that without question, without chance for 
waiver. I want a law that mandates the downgrading of the 
status of the office. I want a law that stops and prohibits aid 
to the government, and I know that the administration and, I 
have it on very good information, the U.S. Senate would like to 
waive everything and put a waiver in for everything.
    So to me, this is an attempt to keep as much of the sting 
in the bill and still leave some room for useful programs that 
improve the quality of life of the people there without 
enhancing the government. And, in fact, to the contrary, 
because of the other things, indicating where we stand should 
they do this.
    So on balance, given the practicalities of getting a law at 
a very late stage in the session and all this, I think this is 
not perfect. Maybe I would want to define a waiver for certain 
kinds of international assistance and no waiver for other 
kinds, but I do not think time permits us to go case by case 
like that.
    Mr. Rothman. Well, would the gentleman support an effort to 
amend this amendment by eliminating this number five?
    Mr. Berman. I would support an amendment that tried to 
delineate between certain kinds of assistance programs going to 
this area and others, but I would not support just flipping it 
around.
    Mr. Rothman. Would the gentleman further yield? I am 
sufficiently concerned that without that I am going to vote 
against the amendment. I have not decided, even without number 
five, whether I am going to vote against the amendment or not. 
I am concerned about it, and, frankly, as a negotiator, if the 
sentence says they want a broad waiver, the natural response 
would be a bill with no waiver and let the conference committee 
hash it out.
    Mr. Berman. If we go to conference on this----
    Chairman Gilman. Mr. Berman, would you complete your 
presentation?
    Mr. Berman. Well, again, the sixth of these; there is no 
waiver, that is, no funds available under any law may be used 
to extend U.S. recognition to a unilaterally declared 
Palestinian state, including, but not limited to, funds for the 
salary of an ambassador, consul, other diplomatic personnel, 
costs of embassy, et cetera, et cetera. No waiver allowed for 
that.
    On the key statements of where we stand on both aid to the 
government and on diplomatic status and status of the 
Palestinian office here, there are no waivers allowed on this.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. Mr. Chairman, since I 
am a strong supporter of the peace process, and the unilateral 
declaration for statehood by the Palestinians would terminate 
the peace process, I strongly support your legislation. 
Clearly, the message is simple. In the event Mr. Arafat and his 
group unilaterally declare the independence of the Palestinian 
state, they have destroyed the possibility of pursuing the 
peace process. Therefore, it is incumbent upon us to make clear 
what the consequences will be.
    I strongly share the view of my friend and colleague from 
Nebraska, Mr. Bereuter, who raised questions about waivers. I 
do not think there is any waiver that is called for in this 
instance.
    I am not one, Mr. Chairman, who is preoccupied by process, 
but I have got to raise a question about the manner in which 
this legislation is being presented to us. I stood with a group 
of colleagues from the Senate and the House on July 26. We 
presented a piece of legislation which is virtually identical 
to this one. Nothing happened to that piece of legislation 
between July 26 and September 26. At 3:12 yesterday afternoon, 
we were sent an e-mail concerning this piece of legislation, 
which I saw for the first time today.
    Now, I think it is singularly inappropriate to proceed 
along these lines, even though I strongly support the substance 
of the legislation. It is also singularly inappropriate to 
request cosponsorships from members who are not members of this 
committee and totally ignore members of this committee who 
would have wished to sponsor this legislation.
    I think, Mr. Chairman, we are owed an apology. This was 
appallingly mishandled. And nevertheless I support the 
legislation and oppose the concept of----
    Chairman Gilman. I thank you for your support, and I just 
want to mention that the prior measure had some technical 
defects, and that is why it lingered in the committee. And you 
should have been advised in enough time to make some comment.
    We will now----
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. I will be very brief and reluctantly rise in 
opposition to Mr. Berman's waiver amendment.
    You know, again and again when we have human rights or very 
important legislation before this committee, the administration 
always wants the widest possible waiver. That is if they want 
the legislation at all. When we were working the religious 
freedom legislation through the House and the Senate, we 
reluctantly agreed to, almost as a condition of passage, the 
waiveability of what they construed to be sanctions. The same 
thing is happening with the trafficking legislation. We have a 
very broad waiver on that as well. Okay? If that is the price 
of getting a consensus, so be it.
    But I think here we are dealing with a dramatically 
different situation. The action has not yet been taken, 
although it has been threatened by Yasir Arafat, and I think 
that is no time to show anything but resolve that there will be 
a predictable penalty if, and only if, the PLO goes ahead, and 
Yasir Arafat in particular, in declaring Palestinian statehood.
    So I think perhaps at some point in the legislation--I hope 
it does not--some well meaning waiver may be inserted. But 
coming out of the blocks, as we are today, when we want to send 
the clearest, unambiguous message to the PLO, I respectfully 
submit to my friend from California that this is not the time 
for this amendment to be approved.
    Chairman Gilman. Thank you, Mr. Smith. Any others? Mr. 
Sherman.
    Mr. Sherman. We are discussing this, and I want to 
emphasize that I do not think there is any difference here in 
Congress or in this committee as to what our policy ought to be 
in the Middle East, which is total and complete rejection of a 
unilateral declaration of statehood by the Palestinians.
    The question that is really before us, and one that is of 
great interest here in Washington but not of terribly great 
interest to those in the Middle East, is to what extent should 
Congress set forth what American foreign policy is or to what 
extent should the President have discretion. And this bill is 
Congress's effort to put our own stamp on foreign policy and, 
frankly, leave a lot of things to the President that the bill 
does not even address. But these are areas where I hope the 
President would be very strong.
    First, the President should take all of the actions 
outlined in this bill, if there is such a unilateral 
declaration of statehood; second, we ought to immediately move 
our embassy to Jerusalem; and third, we should support Israel 
in whatever tough actions it would need to take in response to 
this complete cancellation of the peace process.
    The question then is, though, do we leave these decisions 
to the President, or do we mandate them in a bill? And I think 
that this bill, with the amendment, is the best we can do here 
in Congress to put our stamp on foreign policy. It leaves a lot 
to the President. It gives him a waiver authority if the 
amendment is adopted, but we have got only 2 weeks to pass a 
bill. We ought to pass a bill almost unanimously, and putting 
in this waiver will certainly provide some comfort to those who 
believe that our foreign policy should be fine tuned by the 
State Department and by the President even after Congress 
adjourns, because none of these actions will occur while we are 
in session.
    So I think that there is no division that America stands 
against unilateral declaration of statehood, and we ought to 
reach a compromise as to what extent the White House determines 
our reaction and to what extent Congress determines our 
reaction. But I would hope that the President would take the 
strongest possible action and beyond this bill. But beyond 
that, I hope he communicates to the Palestinian side that he is 
willing to take these actions, and so for that reason there is 
no declaration of statehood, and these actions become 
unnecessary.
    Chairman Gilman. Thank you, Mr. Sherman. Any other members 
seeking recognition on either side? Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. I am a strong supporter 
of the peace process, and I think it is well known that I 
oppose any unilateral action taken by either side. I believe 
that that forgoes and forestalls the peace process.
    I believe at this point we should be very careful in moving 
forward only because the discussions and negotiations are 
taking place, and the timing right now for this seems to be a 
bit much. It seems that his could encumber the peace process if 
we move this out this week, and certainly if we do move it out, 
we should have this amendment supporting the national security 
waiver included.
    But I would also back up Mr. Gejdenson's point with regard 
to deferring this for another week because I think that in our 
commitment to the peace process we must let the peace process 
move forward, and we are at such a vulnerable and sensitive 
time in that process that any message that could undermine 
either side, I think, would be very detrimental. Thank you, Mr. 
Chairman.
    Chairman Gilman. Thank you, Ms. Lee. Any other members 
seeking recognition? Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. Mr. Chairman, first, 
let me applaud your efforts and your intention in this 
legislation. I wholeheartedly agree with everything that you 
are trying to do here. I would also echo the sentiments of 
those who have previously stated that a unilateral declaration 
of independence would be a total disaster for the peace process 
and would undermine any pretense that the parties are willing 
to discuss amongst themselves and come to compromises as to 
what the outcome might be. And I think it would be disastrous 
for Mr. Arafat and his organization as well.
    That being said, to deny the President of the United 
States, either this President or whosoever the next President 
might be, the ability to act in at least very limited 
circumstances in what are the unforeseeable security interests 
of the United States would be an extraordinary policy folly on 
the part of this committee.
    Certainly, we all argue and work toward a stronger role for 
this committee and the Congress in the formation of our policy 
matters, but to deny the historic role of the President, and we 
have done this whether the President be a Democrat or 
Republican, whether the House was in one direction or another. 
It never mattered, but to say that the President should not 
have, and here it only applies to three sections of the bill, 
those sections not affecting policy, not affecting the intent, 
not affecting the very structure and fiber and reason for 
submitting the legislation, to deny that the President, in our 
national security interests, should have his hand tied would be 
a move that no thoughtful person on the committee should abide. 
I will yield to my friend, Mr. Berman.
    Mr. Berman. I thank the gentleman for yielding, and I just 
want to make one point, a little bit sort of taking off on the 
comments of the gentlelady from California, Ms. Lee. This is 
not just about trying to punish the PLO or the Palestinian 
Authority for doing something which is a very breach of the 
commitments that were made at the time of the Oslo Agreements. 
It is an effort to deter this conduct. It is an effort to say 
there are consequences if you do this. This is not something 
that we will issue a few press releases about and then forget 
about and things will go on as normal. That is to say there are 
going to be costs, economic, political, diplomatic, to this 
decision, and it is only fair to tell you beforehand what some 
of those costs are.
    Mr. Sherman, the gentleman from California, mentioned some 
other costs in the hands of the President, which I think also 
should be stated by the Executive Branch, but they are 
peculiarly within his domain.
    So I think the combination of moving this bill before we 
leave here--we are only going to be here two or 3 weeks. We 
will not be in session at the next scheduled time when 
apparently the Palestinian National Council or whomever it is 
is going to consider this issue of the unilateral declaration 
of independence--before we leave, letting them know maximizes 
our ability to deter that outcome, and, therefore, that is why 
the timing of this--I am not saying it is today or tomorrow; 
what I am saying is before we leave here in early, mid-October 
is critical.
    Chairman Gilman. Thank you.
    Mr. Bereuter. Will the gentleman from New York yield?
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. I was just asking the gentleman to yield. I 
do not need much time.
    Mr. Ackerman. I would be delighted to yield.
    Mr. Bereuter. I thank the gentleman for yielding. I think 
the gentleman from California just weakened his own case. This 
is not meant to be punitive, it is meant to be preventive, it 
is meant to be deterring. That is a better deterrent than if, 
in fact, there is a question about what the President will or 
will not waive. So I think the gentleman has weakened his own 
case----
    Mr. Ackerman. Believe it or not, that is actually what I 
understood the gentleman from California to have said.
    Mr. Berman. Just to clarify, there is no deterrent in a 
bill that gets mired down in the U.S. Senate and never gets to 
the President's desk. There is no deterrent in a bill which is 
vetoed by the President. A bill that takes significant action 
in many respects unwaivable, that becomes law, that has the 
Congress and the President speaking with one voice, that is how 
you maximize the deterrent.
    I believe the Gejdenson amendment is an effort to try and 
achieve that balance to maximize the chances of getting that 
law and still have a punch, and that is why I cosponsored his 
amendment.
    Chairman Gilman. Mr. Bereuter? If there are no further 
questions, let me note that the principal purpose of the 
Gejdenson amendment is to provide a limited waiver authority to 
the President with respect to two of the five mandatory 
provisions in the bill.
    I believe this is an important bill, and as the gentleman 
has indicated, it is a sound, preventative measure, and I am 
concerned that we do not want to weaken the measure in any 
manner.
    I do want to note in particular that I agree with Mr. 
Rothman's concern about allowing the President to waive the 
prohibition on U.S. support for international lending to a 
unilaterally declared Palestinian state. The fact is that only 
sovereign states are eligible for international loans, so 
allowing such lending to go forward for a Palestinian entity 
would imply a de facto recognition of Palestine as a state.
    For that reason, I do not believe that that prohibition 
should be available. Accordingly, I will oppose the Gejdenson 
amendment.
    We will now move on the Gejdenson amendment. All in favor 
of the Gejdenson amendment, signify in the usual manner.
    [A chorus of ayes.]
    Chairman Gilman. Opposed?
    [A chorus of nos.]
    Chairman Gilman. The Gejdenson amendment is adopted.
    Mr. Lantos. I ask for a rollcall, Mr. Chairman.
    Chairman Gilman. A rollcall is requested. The clerk will 
call the roll.
    Ms. Bloomer. Mr. Gilman?
    Chairman Gilman. No.
    Ms. Bloomer. Mr. Gilman votes no. Mr. Goodling?
    [No response.]
    Ms. Bloomer. Mr. Leach?
    [No response.]
    Ms. Bloomer. Mr. Hyde?
    [No response.]
    Ms. Bloomer. Mr. Bereuter?
    Mr. Bereuter. No.
    Ms. Bloomer. Mr. Bereuter votes no. Mr. Smith?
    Mr. Smith. No.
    Ms. Bloomer. Mr. Smith votes no. Mr. Burton?
    [No response.]
    Ms. Bloomer. Mr. Gallegly?
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen?
    [No response.]
    Ms. Bloomer. Mr. Ballenger?
    Mr. Ballenger. No.
    Ms. Bloomer. Mr. Ballenger votes no. Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Bloomer. Mr. Rohrabacher votes yes. Mr. Manzullo?
    [No response.]
    Ms. Bloomer. Mr. Royce?
    [No response.]
    Ms. Bloomer. Mr. King?
    [No response.]
    Ms. Bloomer. Mr. Chabot?
    [No response.]
    Ms. Bloomer. Mr. Sanford?
    [No response.]
    Ms. Bloomer. Mr. Salmon?
    [No response.]
    Ms. Bloomer. Mr. Houghton?
    [No response.]
    Ms. Bloomer. Mr. Campbell?
    [No response.]
    Ms. Bloomer. Mr. McHugh?
    [No response.]
    Ms. Bloomer. Mr. Brady?
    [No response.]
    Ms. Bloomer. Mr. Burr?
    [No response.]
    Ms. Bloomer. Mr. Gillmor?
    [No response.]
    Ms. Bloomer. Mr. Radanovich?
    [No response.]
    Ms. Bloomer. Mr. Cooksey?
    [No response.]
    Ms. Bloomer. Mr. Tancredo?
    Mr. Tancredo. No.
    Ms. Bloomer. Mr. Tancredo votes no. Mr. Gejdenson?
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes. Mr. Lantos?
    Mr. Lantos. No.
    Ms. Bloomer. Mr. Lantos votes no. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes yes. Mr. Ackerman?
    Mr. Ackerman. Yes.
    Ms. Bloomer. Mr. Ackerman votes yes. Mr. Faleomavaega?
    [No response.]
    Ms. Bloomer. Mr. Payne?
    Mr. Payne. Yes.
    Ms. Bloomer. Mr. Payne votes yes. Mr. Menendez?
    Mr. Menendez. No.
    Ms. Bloomer. Mr. Menendez votes no. Mr. Brown?
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes. Ms. McKinney?
    [No response.]
    Ms. Bloomer. Mr. Hastings?
    Mr. Hastings. Yes.
    Ms. Bloomer. Mr. Hastings votes yes. Ms. Danner?
    [No response.]
    Ms. Bloomer. Mr. Hilliard?
    [No response.]
    Ms. Bloomer. Mr. Sherman?
    Mr. Sherman. Yes.
    Ms. Bloomer. Mr. Sherman votes yes. Mr. Wexler?
    Mr. Wexler. Yes.
    Ms. Bloomer. Mr. Wexler votes yes. Mr. Rothman?
    Mr. Rothman. No.
    Ms. Bloomer. Mr. Rothman votes no. Mr. Davis?
    Mr. Davis. Yes.
    Ms. Bloomer. Mr. Davis votes yes. Mr. Pomeroy?
    Mr. Pomeroy. Yes.
    Ms. Bloomer. Mr. Pomeroy votes yes. Mr. Delahunt?
    [No response.]
    Ms. Bloomer. Mr. Meeks?
    Mr. Meeks. Yes.
    Ms. Bloomer. Mr. Meeks votes yes. Ms. Lee?
    Ms. Lee. Yes.
    Ms. Bloomer. Ms. Lee votes yes. Mr. Crowley?
    Mr. Crowley. Yes.
    Ms. Bloomer. Mr. Crowley votes yes. Mr. Hoeffel?
    [No response.]
    Chairman Gilman. The clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling?
    [No response.]
    Ms. Bloomer. Mr. Leach?
    [No response.]
    Ms. Bloomer. Mr. Hyde?
    [No response.]
    Ms. Bloomer. Mr. Burton?
    [No response.]
    Ms. Bloomer. Mr. Gallegly?
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen?
    [No response.]
    Ms. Bloomer. Mr. Manzullo?
    [No response.]
    Ms. Bloomer. Mr. Royce?
    [No response.]
    Ms. Bloomer. Mr. King?
    [No response.]
    Ms. Bloomer. Mr. Chabot?
    [No response.]
    Ms. Bloomer. Mr. Sanford?
    [No response.]
    Ms. Bloomer. Mr. Salmon?
    [No response.]
    Ms. Bloomer. Mr. Houghton?
    [No response.]
    Ms. Bloomer. Mr. Campbell?
    [No response.]
    Ms. Bloomer. Mr. McHugh?
    [No response.]
    Ms. Bloomer. Mr. Brady?
    [No response.]
    Ms. Bloomer. Mr. Burr?
    [No response.]
    Ms. Bloomer. Mr. Gillmor?
    [No response.]
    Ms. Bloomer. Mr. Radanovich?
    [No response.]
    Ms. Bloomer. Mr. Cooksey?
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega?
    [No response.]
    Ms. Bloomer. Ms. McKinney?
    [No response.]
    Ms. Bloomer. Ms. Danner?
    [No response.]
    Ms. Bloomer. Mr. Hilliard?
    [No response.]
    Ms. Bloomer. Mr. Delahunt?
    [No response.]
    Ms. Bloomer. Mr. Hoeffel?
    [No response.]
    Chairman Gilman. Are there any further members who have not 
indicated their vote? If not, the clerk will report the tally.
    Ms. Bloomer. On this vote there were 14 ayes and eight nos.
    Chairman Gilman. The amendment is agreed to. The gentleman 
from Nebraska. Are there any other amendments? If not, the 
gentleman from Nebraska, Mr. Bereuter, is recognized to offer a 
motion.
    Mr. Bereuter. I move that the Chairman be requested to seek 
consideration of the pending bill as amended on the suspension 
calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. As many who are in favor, signify in 
the usual manner.
    [A chorus of ayes.]
    Chairman Gilman. Opposed?
    [A chorus of nos.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Without objection, the chairman is authorized to make motions 
under Rule 22, with reference to a conference on the bill or a 
counterpart bill passed by the Senate. Further proceedings on 
the measure are postponed. The committee stands adjourned. 
Thank you for participating.
    [Whereupon, at 1 p.m., the committee meeting was 
adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of Hon. Benjamin A. Gilman, a Representative in 
      Congress from the State of New York, Chairman, Committee on 
                        International Relations
    Because I and many of my colleagues remain very concerned about the 
possibility that Yasser Arafat and the PLO will declare a Palestinian 
state unilaterally, the Committee is today marking up legislation today 
that would underscore the need for a negotiated settlement between 
Israel and the Palestinians.
    The ``Peace Through Negotiations Act of 2000'', which I introduced 
on behalf of myself, Mr. Gejdenson, ADD IN OTHER ORIGINAL COSPONSORS, 
recognizes that resolving the political status of the territory 
controlled by the Palestinian Authority is one of the central issues of 
the Arab-Israeli conflict.
    The Palestinian threat to declare an independent state unilaterally 
constitutes a fundamental violation of the underlying principles of the 
Oslo Accords and the Middle East peace process. That threat continues 
unabated.
    Our measure would establish that it is the policy of the United 
States to oppose the unilateral declaration of a Palestinian state, and 
that diplomatic recognition should be withheld if one is unilaterally 
declared. The bill would also prohibit all US assistance to the 
Palestinians except for humanitarian aid, and would downgrade the PLO 
office in Washington, D.C.
    Additionally, the measure would encourage other countries and 
international organizations to join the United States in withholding 
diplomatic recognition, and would authorize the President of the United 
States to withhold payment of US contributions to international 
organizations that recognize a unilaterally declared Palestinian state.
    Over eighteen months ago, Congress spoke with one voice about the 
prospects of a unilateral declaration of statehood by the Palestinians. 
Non-binding legislation adopted by both houses stated that ``any 
attempt to establish Palestinian statehood outside the negotiating 
process will invoke the strongest congressional opposition.''
    The Peace Through Negotiations Act is a measured, but legislatively 
binding response to that possibility. I urge our colleagues' strong 
support for this bill, which we expect to take up on the suspension 
calendar later today.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

</pre></body></html>
